<html>
<title> - THE INCREASED IMPORTANCE OF THE VIOLENCE AGAINST WOMEN ACT IN A TIME OF ECONOMIC CRISIS</title>
<body><pre>[Senate Hearing 111-977]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-977
 
THE INCREASED IMPORTANCE OF THE VIOLENCE AGAINST WOMEN ACT IN A TIME OF 
                            ECONOMIC CRISIS

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2010

                               __________

                          Serial No. J-111-89

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
66-328                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
               Matthew S. Miner, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    48
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    61

                               WITNESSES

Carbon, Susan B., Judge, Director, Office on Violence Against 
  Women, U.S. Department of Justice, Washington, DC..............     3
Gelles, Richard J., Ph.D., Dean, School of Social Policy & 
  Practice, University of Pennsylvania, Philadelphia, 
  Pennsylvania...................................................    20
Ulloa, Lolita, Managing Attorney, victim Services division, 
  Hennepin County Attorney's Office, Minneapolis, Minnesota......    18
Watersong, Auburn L., Economic Justice Specialist, Vermont 
  Network Against Domestic and Sexual Violence Montpelier, 
  Vermont........................................................    16

                         QUESTIONS AND ANSWERS

Responses of Susan B. Carbon to questions submitted by Senator 
  Sessions.......................................................    29

                       SUBMISSIONS FOR THE RECORD

Carbon, Susan B., Judge, Director, Office on Violence Against 
  Women, U.S. Department of Justice, Washington, DC, statement...    36
Gelles, Richard J., Ph.D., Dean, School of Social Policy & 
  Practice, University of Pennsylvania, Philadelphia, 
  Pennsylvania, statement........................................    49
Sargent Shriver National Center on Policy Project, Wendy Pollack, 
  Director Women's Law and Policy Project, Chicago, statement....    63
Ulloa, Lolita, Managing Attorney, Victim Services Division, 
  Hennepin County Attorney's Office, Minneapolis, Minnesota, 
  statement......................................................    66
Violence Against Women Act (VAWA), Janice Shaw Crouse, Austin, 
  Texas, statement...............................................    73
Watersong, Auburn L., Economic Justice Specialist, Vermont 
  Network Against Domestic and Sexual Violence Montpelier, 
  Vermont, statement.............................................    78
Women's Legal Defense and Education Fund, Lisalyn R. Jacobs, Vice 
  President of Government Relations at Legal Momentum, and Maya 
  Raghu, Senior Staff Attorney at Legal Momentum, articles.......   101


THE INCREASED IMPORTANCE OF THE VIOLENCE AGAINST WOMEN ACT IN A TIME OF 
                            ECONOMIC CRISIS

                              ----------                              

                     WEDNESDAY, MAY 5, 2010
                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Franken, 
Sessions, and Hatch.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Now that we have settled all the problems 
of the world, up here are Senator Franken and Senator 
Klobuchar, Senator Sessions, and Senator Hatch. Glad to have 
you here, and we will begin soon, of course, with the Director 
of the Office on Violence Against Women, Susan Carbon, and I 
thank you for being here.
    We all know that the Violence Against Women Act, or VAWA, 
was a watershed piece of legislation. It was enacted 15 years 
ago, with the support of many of us on this Committee, and it 
is just as crucial now as it was 15 years ago. It has provided 
critical, sometimes life-saving, assistance to countless 
survivors of domestic and dating violence, sexual assault, and 
stalking. The legislation shed light on the national problem of 
violence against women and marked a bipartisan commitment to 
confront and end domestic and sexual violence. Those of us on 
this Committee who have been prosecutors know how important it 
has been.
    Now, since that time, we have responded with better laws, 
social support, and coordinated community responses. I was 
proud to work on the original VAWA bill. I am pleased with what 
it has accomplished. Our communities and families are safer 
today because of the law. And as we begin to reconsider the 
reauthorization of the law, it is important to note that, for 
all we have accomplished, there is more to be done. 
Unfortunately, the problem of domestic and sexual violence 
persists, and in times of economic crises, the victims become 
even more vulnerable.
    The Violence Against Women Act has transformed our criminal 
justice system. It has improved legal and law enforcement 
response to the complex issues of domestic and dating violence.
    It cannot be clearer than it is today as our country copes 
with a troubled economy. The economic pressures of a lost job 
or home or car can add stress to an already abusive 
relationship. As victims' needs grow, state budget cuts are 
resulting in fewer available services, including child care, 
counseling, transitional housing, and so on.
    Unfortunately, these services can sometimes mean the 
difference literally between life and death for some victims. I 
advocated for increased funding of VAWA programs in the 
American Recovery and Reinvestment Act. I was pleased that the 
Recovery Act included $50 million for transitional housing 
assistance.
    But I think we have to go further. We have to prioritize 
our response to the high rates of violence experienced by 
Native American and immigrant women. We have to think of new 
and better ways of doing these things.
    Senator Murray, a long-time supporter of VAWA, has 
introduced a bill I am proud to cosponsor to provide victims 
with unpaid leave for legal and medical appointments, 
eligibility for unemployment insurance, and protection from 
employment and insurance discrimination. These policies make 
good sense, and I know in my own State, the Vermont Network 
Against Domestic and Sexual Violence is at the forefront of 
these innovative approaches. They have leveraged private 
resources with Federal, State, and local financial support, and 
the Vermont Network does a great deal. It helps survivors with 
a variety of needs from budgeting to credit repair to 
employment counseling, and I could go on and on about the way 
they do help.
    So we are going to hear today from Judge Susan Carbon, the 
Director of the Office on Violence Against Women. Judge Carbon 
has led efforts to combat domestic violence at the State and 
national level. I look forward to hearing her perspective.
    Judge, after you turn we will hear from Auburn Watersong, 
an Economic Justice Specialist at the Vermont Network Against 
Domestic and Sexual Violence, and we are going to hear from 
Lolita Ulloa of the Victim Services Division at the Hennepin 
County Attorney's Office. I have a feeling why she was invited. 
And then we will hear from Richard Gelles, Dean of the School 
of Social Policy & Practice at the University of Pennsylvania.
    I apologize that the pollen in my voice is affecting me. 
That may be an advantage.
    [Laughter.]
    Chairman Leahy. Senator Sessions, I yield to you.
    Senator Sessions. Thank you, Mr. Chairman. We thank you, 
Judge, for being with us, and it is good that we look at this 
program. We need to make sure that it is fulfilling its 
mission, and you will be, I know, getting into the challenge of 
that. I just believe from my experience in the Federal 
Government and working with various different agencies that you 
need periodic re-evaluations and new excitement and 
recommitment to the basic mission. So I hope that you can bring 
that leadership to the effort.
    I think that there is much that we know about violence 
against women, much we know that works in reducing it. There 
are some things we do not know. I believe strongly that the 
primary function of our Federal response should be first to 
make sure that people throughout the States who carry out so 
much of this work are fully informed on the practices that are 
effective and that they, when there are things we do not know, 
help them find the information because they are constructing 
their own policies and procedures to deal with the tragedy of 
violence against women. Police officers and probation officers 
and others need to be informed on what is the best way to 
handle these situations. A lot of research has been done, but 
we still do not know as much as we would like to know.
    So I hope that you will take the lead in that in making 
sure that we properly inform our people throughout the country 
as to what the best policy should be.
    Thank you, and, Mr. Chairman, I look forward to the 
hearing. I do have some conflicts this morning, and I may not 
be able to stay with you the whole time, but thank you for 
conducting the hearing.
    Chairman Leahy. Thank you very much.
    Judge Carbon, please go ahead, and, again, thank you for 
being here.

  STATEMENT OF THE HON. SUSAN B. CARBON, DIRECTOR, OFFICE ON 
VIOLENCE AGAINST WOMEN, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, 
                              DC.

    Judge Carbon. Thank you very much, Mr. Chairman.
    Chairman Leahy. And I will also tell Judge Davenport in 
Vermont the nice things you said about her.
    [Laughter.]
    Judge Carbon. Thank you. She is absolutely wonderful. Good 
morning, Chairman Leahy and Senator Sessions and members of the 
Committee. I am privileged and honored to be here this morning, 
and I thank you for the opportunity to speak with you about the 
vital role that the Violence Against Women Act has played in 
our efforts to end violence against women, and especially to 
highlight the importance of VAWA programs and policies in times 
of economic stress.
    The resources that are authorized by VAWA have never been 
more important than they are today. As our Nation confronts 
serious economic challenges, everyone is affected, particularly 
victims of domestic violence who are so often isolated.
    In the best of economic times, a victim worries about 
finding a job and shelter for her children. During an economic 
downturn, these obstacles and problems intensify. Indeed, 
victims may face additional obstacles leaving a dangerous 
environment.
    Organizations that often constitute the lifeline for 
victims are confronting economic crises of their own, resulting 
from reduced State and private funding. On one day alone in 
September of 2008, over 8,900 requests for services went unmet 
due to a lack of resources. Just a year later, that number had 
increased to nearly 9,300 unmet requests.
    I commend Congress, I commend all of you, for your 
leadership in recognizing these issues and in providing 
additional funding through the American Recovery and 
Reinvestment Act of 2009, which provided OVW with an additional 
$225 million to assist victims of domestic violence, dating 
violence, sexual assault, and stalking. This funding has filled 
critical gaps in services.
    The Violence Against Women Act has made a real difference 
in people's lives. Since 1995, over $4 billion have been 
awarded to States, territories, local governments, tribal 
governments, and nonprofit organizations to develop innovative 
strategies to respond to violence against women. Of particular 
note, VAWA brings together people from diverse backgrounds to 
improve community and systems responses.
    In my two decades on the bench, I have seen firsthand how 
we can better fulfill our own responsibilities if we work in 
concert with other professions. Effective issuance and 
enforcement of protection orders, for example, are greatly 
enhanced when advocates, law enforcement, judges, and 
prosecutors work together to ensure that our systems are 
seamless and, indeed, this in turn translates into enhanced 
safety for victims and their children.
    With VAWA funding, communities are forging effective 
partnerships among Federal, State, territorial, local, and 
tribal governments and among civil and criminal justice systems 
and victim advocates. VAWA-funded services reach hundreds of 
thousands of victims every year. In the first 6 months of last 
year, 2009, our OVW grantees reported that over 125,000 victims 
received over one quarter of a million (253,000) services.
    The Violence Against Women Act has been instrumental in 
changing the way our country perceives and addresses violent 
crimes against women. We are in the middle of a Department-wide 
commemoration of the passage of the Violence Against Women Act 
over 15 years ago. The goals of this anniversary campaign are 
three-fold: to raise public awareness, to build and renew 
coalitions among public and private sectors, and to end once 
and for all stalking, sexual assault, domestic violence, and 
dating violence for men, women, and children all across the 
country. We view this campaign not only as a vehicle to honor 
the accomplishments of the past 15 years, but as a platform for 
continued and expanded call to action.
    Although we can be rightfully proud of our accomplishments, 
we must also recognize that there is much to do. Historically, 
OVW has focused on intervention, and that is to say, providing 
services to victims and holding offenders accountable. VAWA has 
been successful at focusing on intervention after a violent 
crime has occurred, and clearly the need for services 
continues.
    As a judge, however, I have seen all too often the 
destructive cycle of violence play out through generations. If 
we are ever going to break the cycle of violence that plagues 
communities all across the country, then we need to broaden our 
focus and incorporate prevention strategies in all that we do.
    Congress has consistently demonstrated its commitment to 
assess what is working and to confront emergent challenges. As 
we consider the reauthorization of VAWA, we need to think about 
what steps we can take to prevent violence in the first 
instance so that we can avoid its serious aftermath.
    I cannot stress enough how important it is for Congress to 
reauthorize VAWA to sustain, strengthen, and enhance our 
Nation's efforts to end violence against women. I look forward 
to working with all of you to consider how reauthorization can 
help us respond to the many challenges that lay ahead.
    I want to thank you very much, Mr. Chairman, members of the 
Committee, for your commitment and for your time this morning, 
and I welcome the opportunity to address any questions that you 
might have. Thank you.
    [The prepared statement of Judge Carbon appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Judge, as we reauthorize VAWA, the Violence Against Women 
Act, we have expanded it beyond just being a criminal justice 
response. As we have learned more about it, we have added some 
things to it. We have added ways to address more broadly the 
needs of victims, to become more comprehensive--I hate to use 
the term ``holistic,'' but sort of a holistic approach. Has 
that worked? Have we had successes doing that kind of 
expansion?
    Judge Carbon. Senator Leahy, we have had enormous progress 
and success in meeting needs through much of the work that we 
have done over the past 15 years. I think one of the greatest 
accomplishments of the Violence Against Women Act in its first 
instance has been to raise public awareness about the extent 
and the breadth and the complexity of the problem. We have 
expanded the services through what we characterize as a 
coordinated community approach to addressing domestic violence, 
sexual assault, dating violence, and stalking. And through 
these efforts to reach out to the public by engaging 
professions and community leaders in working together, we are 
able to address not only the criminal justice system but the 
civil justice system and expand our reach to understand the 
importance of providing a breadth of services to victims.
    We know next to achieving safety that victims need economic 
stability so that they may have a range of services provided to 
them. And being able to provide legal assistance, housing, and 
a breadth of other services is critically important.
    We know also that this is an area where our need exceeds 
our ability to provide all of the services, and we are hopeful 
to work with Congress as we look at reauthorization to broaden 
that scope.
    Chairman Leahy. Well, we put extra money in the Recovery 
Act, we put $225 million. I had argued strongly for that. We 
had a number of other leaders in the Senate who did. Has that 
had a good effect, or should we have done that?
    Judge Carbon. You absolutely should have done it, and we 
are so grateful that you did, and I want to thank all of you 
for your leadership in doing so.
    The Recovery Act funding, the $225 million, reached victims 
all across the country. We were hearing, and continue to hear, 
frankly, that there still remains great unmet need, and the 
National Victimization Survey has documented that information 
for us. But through the Recovery Act, we were able to provide 
further funds through our STOP grants to reach out through 
coalitions across the country, to fill jobs, to keep shelter 
services in place, to keep advocates in place, and be able to 
service the needs of victims both within local communities and 
in tribal communities as well. This has been extremely 
important.
    Chairman Leahy. You know, now is the time to look at where 
the needs might be, where there are some things that we should 
be looking at if we are going to be reauthorizing. This has 
always been a bipartisan effort up here in the reauthorization. 
Are there needs currently unmet? I am thinking of not only 
domestic violence, but dating violence, stalking. Some of these 
things are--one especially on the front page of the papers even 
today. Do we have to make legislative changes or funding 
changes? What would you--if you could just write the 
legislation--and I realize that it is a long way from that--
what are some of the things you want to do?
    Judge Carbon. We have lots of things we would like to do, 
and we are going to look forward to working with all of you to 
develop what that will look like. There are lots of priorities 
that we have around the unmet needs of victims, and in 
particular, as I mentioned in my statement, I think we need to 
not only provide services for victims, but I would like for us 
to be able to step back a bit to try to prevent violence in its 
first instance.
    So we have lots of priorities that I would classify first 
around prevention efforts so that we can reach out and stop 
this cycle of violence. Ultimately, in an ideal world, if we 
could stop violence, we would not need to worry about the next 
steps toward intervention. But the intervention services will 
remain critical, and in particular, as we look at housing 
assistance and economic stability for victims, that will be 
important. But our efforts around prevention I think are 
critically important.
    A second area that we will focus on, because it is a 
priority for the entire Department, are services around sexual 
assault. We have expanded our realm of domestic violence 
services in particular for the past 15 years. We believe that 
issues around sexual assault are also critically important and 
want to expand that. As you know, in the most recent iteration 
of VAWA, there were expanded services for sexual assault, and 
we would like to continue to expand that realm because the 
needs are so great. So we will be working and hope to work with 
all of you on expanding those resources.
    Chairman Leahy. Well, the idea of stopping it before it 
happens is so important. I still see so clearly a victim in the 
emergency room of our hospital in Burlington, Vermont, when I 
was a prosecutor, at 3 or 4 o'clock in the morning, and the 
victim telling me who did it, and then dying. And when we 
unraveled everything, the warning signs had been there. If 
there had been any place that person could have turned to for 
help, it never would have happened.
    Senator Sessions.
    Senator Sessions. Judge, as a State judge, you have a good 
perspective, and I guess the reality of these issues as a 
family judge particularly, you have seen it. Do you envision a 
fundamental alteration in the understanding we have already 
always had that the State and local jurisdictions should be the 
primary front-line entities who deal with violence against 
women?
    Judge Carbon. In my experience, Senator Sessions--that 
you--as a State court judge, a family court judge, the 
resources provided by the Violence Against Women Act have 
enabled us on the ground to reach victims and children----
    Senator Sessions. No, I am just asking you fundamentally. 
Do you still envision or do you have a different view about the 
role of the Federal Government as an aider, assister, enabler 
of State and local programs? Or do you view that we would move 
more to a Federal kind of program?
    Judge Carbon. I would envision that we would retain our 
current framework. I think it has been very effective.
    Senator Sessions. How many jurisdictions throughout our 
Nation--if you would just hazard an opinion or give me a quick 
view--how many of these jurisdictions throughout our Nation 
effectively deal with violence against women--that is, have a 
protocol, a program, shelter homes, or trained probation 
officers, judges who understand that all crimes are not the 
same and have different needs and appropriate responses? Do you 
have an opinion of how well our State and local jurisdictions 
are performing?
    Judge Carbon. My belief is that they are performing very 
well. We have done, the office has done a great outreach to 
judges, prosecutors, advocates, law enforcement, shelter 
services all around the country.
    Having said that, we have turnover all the time, and there 
is a continuing ongoing need to train and educate people about 
good practice. One of the things the office has done 
particularly well is to promote and promulgate best practices 
for all of the different professions and for the community 
service providers. That to me is a hallmark of our effort and 
one which we will continue to do.
    Senator Sessions. I thank you. That is correct. You may 
have a good program working in a community, and some of the key 
players go or leave, and you are back to not effective as you 
would like to be. And as the Chairman said, properly 
intervening can be the difference between life and death. There 
is just no doubt about it. But we need to do that wisely.
    Now, there was as proposal a few years ago, in 2008, to 
consolidate a number of the Violence Against Women Act programs 
administered by your Department, and a hearing, I think, was 
held in the House on that. The stated purpose was to reduce the 
time grantees spent in applying for grants to eliminate 
earmarks and formulas and allow multiple needs to be addressed 
based on the needs of the jurisdictions.
    I know OJP Director Ms. Laurie Robinson has advocated in 
the past for more consolidation and more streamlining under the 
theory that you can get more money quicker directly to the 
people in need and actually reduce violence by better systems 
than would otherwise be the case.
    Are you open to those kind of reviews? She said she 
believed in that when she was confirmed. Are you open to those 
kind of reviews? And will you give it your best ideas how to 
help that local jurisdiction of which you used to be a part 
know where to apply, have simpler applications and a quicker 
response?
    Judge Carbon. Thank you, Senator Sessions. Having been a 
grantee myself and having been at the other end writing grants 
and administering grants, I can appreciate from the public 
standpoint how important it is to have a streamlined grant 
process. So I can bring that perspective to the office.
    I can also share with you that we have been looking at 
whether we should and can consolidate different programs 
because there is some duplication, if you will, of purpose 
areas, but we do not want to lose and not be serving everybody 
whom Congress has intended that we serve.
    So we are looking at that very carefully to see if we can 
streamline and how that might happen, but it is an issue that 
we are looking at. We are certainly----
    Senator Sessions. I think our Members of Congress sometimes 
are quite proud of some proposal or program that they develop, 
but I think if you lead you might find there is real success in 
some of the streamlining and consolidation, and there might be 
some pushback at various places. And I know you want to respect 
Congress' view, but I think you should not hesitate as the 
person on the ground handling these issues to tell us what you 
think would make the program better. And I think you might find 
some things are accepted even though maybe you will have 
objections to others. But I hope you will do that, and thank 
you for your leadership.
    Judge Carbon. Thank you so much, Senator.
    Chairman Leahy. Thank you. We are going to go to Senator 
Klobuchar, and I am going to put a statement by Senator 
Feingold in the record. We will, of course, leave the record 
open for the rest of the day for any other Senators who want to 
put in statements.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Chairman Leahy. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Chairman Leahy, for 
holding this important hearing. Thank you for being here as 
well.
    As we know, our economy is starting to rebound from the 
devastating job losses and the housing crisis that it has 
experienced over the past 2 years, and our States have likewise 
faced crises, budget crises, and we have seen drastic spending 
cuts across the board almost uniformly beginning with social 
services such as funding for domestic violence shelters or 
social work.
    This is very important for me. I headed up the county 
attorney's office. In fact, our next panel will feature someone 
who is a great leader nationally, Lolita Ulloa, in this area. 
And so we have been through cycles before, but my concern here 
is that we do not cut back on some of the services that we need 
the most for our victims to put themselves back in the job 
market and really break the cycle not only by prosecuting 
offenders but by actually making sure that they have a chance 
to succeed.
    And so one of the things, as we talk about this cycle, I 
noticed in your testimony was this idea of the cycle of 
children exposed to violence. And I think I have mentioned this 
to you before, but the idea was that kids that grow up in 
violent homes are much more likely to commit violence 
themselves. I remember we had a poster in our office when you 
walked in that was a picture of a Mom with a Band-Aid on her 
nose holding a baby, and it said, ``Beat your wife, and your 
kid will go to jail.''
    So could you talk about the Attorney General's initiative 
and what role you think your office can play in reducing 
violence in the future in terms of kids growing up in these 
homes?
    Judge Carbon. Thank you, Senator. You have touched upon one 
of the most critical areas, in my view, and that is, children 
exposed to violence. And as you have said, it is an enormous 
problem for children being exposed to violence in homes 
because, as a judge, I have seen the experience of children in 
court, I have seen the experience of battered mothers bringing 
their children and trying to access services for them.
    We do know and the research shows that if children are 
exposed to domestic violence or other types of violence in 
their home, they will, as you say, grow up and suffer in any 
number of extraordinary ways. Their own development, their own 
psychological development can be arrested. Their ability to 
succeed at school can be affected. Their socialization can be 
affected. Their ability to form the important attachments to 
loving, caring parents can be affected. And so as they grow up, 
there is a tendency for them as well to become future victims 
of domestic violence or themselves as well to become 
perpetrators even within their own family. So it is an issue 
that we need to address and one of the reasons why the Attorney 
General is so committed to making this one of his signature 
items as Attorney General.
    We have recently issued a solicitation that is open, I 
believe now, until June 1st to invite jurisdictions to apply to 
become a demonstration site and also for some other grant 
opportunities to see how we can bring a holistic approach to 
serving the needs of children, in part to understand better 
research about how children are affected by domestic violence, 
what most appropriate services we can put in place for them, 
and how we can reach within communities to provide the holistic 
approach that children will need so that we can cut that cycle 
and stop that from continuing on.
    We will be looking at this and making this a departmentwide 
initiative for us, and we foresee our office working with other 
components within the Department to focus on the prevention 
activities around children exposed.
    Senator Klobuchar. Thank you very much. Another area you 
mentioned was homicide prevention, and I think people sometimes 
are startled by this fact that 45 percent of all female 
homicide victims in 2007 were killed by a partner. We just saw 
this recent horrible incident in the college in Virginia.
    I know that when you were a judge, you worked with the New 
Hampshire Domestic Violence Fatality Review Committee--we have 
a similar one in Hennepin County--which reviewed domestic 
violence-related deaths. Is that a model you think that other 
States can follow where you actually do like a hospital would 
do and look back at what went wrong in a surgery and try to 
identify the problem spots?
    Judge Carbon. Homicide prevention is a critical part of the 
overall prevention efforts that I foresee us looking at. In my 
view, having chaired that Committee and worked with other 
fatality review committees across the country, I can tell you 
that it is a very illuminating way to look at your systems, 
where gaps might have been, and then develop policies and 
protocols for preventing future homicides. It is a great way 
and a quintessential example of a collaborated, coordinated 
community response to domestic violence.
    The statistics would show us that between this morning and 
the time that we all go to bed tonight, three more people will 
die from a domestic homicide. It is an extreme problem, and if 
this approach that we know works, we would like to see this 
expanded.
    Senator Klobuchar. [Presiding.] Well, thank you very much, 
and I will put some questions in the record. I am going to turn 
this over to Senator Hatch about the work that you are doing 
with the full faith and credit and enforcing protection orders 
across State lines, which I know is always a frustrating piece 
for prosecutors of our business.
    Judge Carbon. Thank you, Senator.
    Senator Klobuchar. Senator Hatch.
    Senator Hatch. Thank you, Senator Klobuchar, and thank you, 
Judge, for being here and for your good work in this area. I 
remember back when I was Chairman of the Committee and we 
decided to do the Violence Against Women Act, it was not nearly 
as popular as it is today, but it is popular because of people 
like you, and many others, thousands of others across the 
country who really have done what is right with regard to not 
just women but young girls and children as well.
    As you know, it is a comprehensive legislative package 
designed to end violence against women, and I am really pleased 
to work with my colleagues to make sure we get this 
reauthorized and that this Committee continues its support of 
these legislative remedies. Again, let me thank you for 
appearing before us today. You have an important job in my 
eyes, and I am here to assist you and the Department of 
Justice.
    Although economic crisis does not cause domestic violence, 
it may increase existing violence in the home. Studies have 
shown that financial strain and unemployment are correlated to 
an increase in continuing domestic violence. Now, I have 
concerns that the current economic crisis and its effect on 
domestic violence not only impact every one of my fellow 
Utahans, but also victims of domestic violence across this 
Nation. The current economic downturn directly impacts victims 
of domestic violence who are seeking help to rebuild their 
lives.
    Now, is the Department of Justice accumulating data that 
tracks economic factors as a contributing factor to domestic 
violence?
    Judge Carbon. Thank you, Senator Hatch. We are looking at 
all of the elements that we can through research and through 
hearing from our grantees and from our TA providers about the 
extent to which the unmet needs exist and how we can better 
frame and provide services to track any trends in the increase, 
if there is, and what we can do about it to provide better 
services so that we are ensuring that we are able to meet those 
needs.
    Senator Hatch. My home State of Utah is considered by some 
a rural State. Rural areas are especially hard hit by the 
current economic downturn. In some rural communities, rape 
collection kits are not always subsidized. On some occasions, 
victims have to pay for their own rape kit.
    This is also becoming a growing trend in urban communities 
as funds for rape kits and DNA testing begin to dry up. I think 
we are all familiar with the horror stories of rape kits that 
contain good DNA samples sitting unprocessed in police evidence 
lockers. Now, these kits will sometimes sit for years while the 
perpetrators of sexual assaults remain free to target 
additional women for sexual assault.
    Let me just ask you, how is the Department of Justice 
ensuring that DNA samples and rape kits are being processed and 
suspects are being identified?
    Judge Carbon. Senator Hatch, thank you. This we recognize 
is an enormous problem. We need to understand the breadth and 
all the full component of what the issues are concerning why 
there is such a backlog and what we can do about it. The 
National Institute for Justice, which is a part of the 
Department of Justice, is going to be hosting an educational 
forum next month to look at the issue of the rape kit backlog, 
why it exists, whether it is from lack of resources for 
testing, lack of funding, or lack of quality. And we want to 
try to understand the nature and the breadth so that we can 
avoid those problems of people continuing to perpetrate sexual 
assault on women when the rape kits have not been completed.
    We also know that it is something which will take good 
research and good work, and we are anxious to work with 
everybody together to see what can be done to address that 
problem.
    Senator Hatch. A few years back, I was just appalled that 
some of these rape kits that had been collected sat idle for 
over 20 years, and the minute they started going into them, 
they started finding people and stopping some of the things 
that were going on. So we need to do a better job there.
    Judge Carbon. We could not agree more. Thank you.
    Senator Hatch. The need for services for victims of 
domestic violence is especially acute in rural communities. In 
certain communities, medical workers are thrust into the 
situation as the first-line detector of domestic violence.
    What training and resources are available to rural law 
enforcement and rural health care providers to assist them in 
detecting and reporting domestic violence in these communities?
    Judge Carbon. Thank you, Senator. We actually, through the 
Violence Against Women Act, have a separate funding stream that 
is dedicated to rural programs to reach out through local 
communities to address the unique nature of rural violence. 
Even if parts of the country which may not be designated as 
rural jurisdictions, there are major rural areas within 
jurisdictions. So this is a problem that is incumbent upon us 
to address to make sure that we can provide necessary resources 
and training through both the rural grant and through our STOP 
grants, our formula grants, to make sure that we can provide 
training and technical assistance to the grantees so they will 
know how best to reach and make sure that we are, in fact, 
connecting with as many victims as possible.
    Senator Hatch. Well, I want to thank you for the work that 
you are doing. I really appreciate it personally as the father 
of three daughters and what some people think are countless 
granddaughters and great-granddaughters.
    [Laughter.]
    Senator Hatch. We are very concerned about what you are 
doing. I want to make sure that you have the resources and that 
you have our backing fully, because the work you are doing is 
really, really very important, as far as I am concerned, and I 
am sure everybody on this Committee. So I want to thank you for 
the work that you are doing.
    Judge Carbon. Thank you very much, Senator.
    Senator Hatch. Thank you, Madam Chairman. I appreciate it.
    Senator Klobuchar. Thank you. And anyone who has seen 
Senator Hatch's holiday card will know that there are, in fact, 
a lot of daughters and granddaughters.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    Judge Carbon, thank you also for your work. You cited the 
numbers from a survey conducted by the National Network to End 
Domestic Violence. On just 1 day in 2009, over 9,000 requests 
for services made to domestic violence organizations were unmet 
because of lack of resources. My wife and I went down to 
Rochester, Minnesota, and there was a shelter there for women 
and their children, victims of domestic violence. It 
essentially was two houses put together. I think they could 
serve nine women and their children at one time--families. And 
they had 98-percent capacity or something, and women from the 
Rochester area could use it, but if they could not get in 
there, they had to go somewhere else. And sometimes they had to 
go pretty far away and could not maintain their jobs.
    I was wondering what are we doing to address this kind of 
lack of resource and to make sure that women, especially when 
we talk about the economic impact of all of this, that they can 
stay in their community, do their job, you know, keep their 
jobs, and get these kind of services.
    Judge Carbon. Thank you, Senator Franken. You have 
addressed a couple issues here which are critically important. 
The first is through our working through your reauthorization 
of VAWA in 2005, you looked at part of the economic issue 
through the transitional housing programs and through a new 
program for a resource center, a national resource center on 
workplace responses to domestic violence. And through that 
program, we are working with a number of national technical 
assistance providers to develop a system so that there are 
resources for employers so that they will know what good 
policies and practices are to help employers address victims 
who may be experiencing domestic violence in their homes but 
then come to work and are trying to ensure they can retain 
their jobs and what employers can do to assist them.
    We know that in a poor economy if victims lost their jobs, 
regaining employment will be critically important and difficult 
to do, and so we want to provide resources necessary for them 
to ensure that employers understand what their role would be in 
helping victims to retain their positions.
    We are also looking at other areas concerning transitional 
housing and the services that can be offered through that 
program. The Recovery Act, as I mentioned before, was very 
helpful in filling some of this gap in services, so both 
housing and security in jobs will be critically important.
    Senator Franken. In his testimony in the next panel, Dr. 
Gelles writes, ``It is difficult to determine with precise 
accuracy where monies and resources should be directed in 
reference to violence against women or family violence in 
general.'' I was wondering if you, Judge Carbon, have any ideas 
where monies and resources could be directed in reference to 
violence against women and family violence.
    Judge Carbon. I think Congress has done an extraordinary 
job of reaching out and providing services to victims in many 
different venues. It is critically important that advocacy 
services continue to be funded, that resources concerning 
employment security be looked at, that housing assistance be 
provided. One area in particular that I would like to highlight 
is the need for legal assistance for victims. We have a legal 
assistance funding stream, but we know that 70 percent of 
victims still do not have access to an attorney, even for 
protection order hearings, let alone the subsequent work 
regarding custody, other economic support which they are in 
dire need of.
    That is one of the most popular, if you will, grant 
programs which we have. Regrettably, we can only fund a third 
of the applications that come in through our requests for legal 
assistance. So we are looking at ways that we----
    Senator Franken. That is an area where we could direct more 
resources.
    Judge Carbon. Absolutely.
    Senator Franken. We all know too well that Indian women are 
victimized more than any other population. In fact, according 
to Amnesty International, one in three Indian women has 
reported being raped in her lifetime. When VAWA was 
reauthorized in 2005, money was set aside to help tribal 
governments address violence against Indian women.
    Have you seen results from these programs? Do they need to 
be changed? Do they need to be expanded?
    Judge Carbon. Thank you, Senator. As you pointed out, on 
the VAWA 2005 reauthorization, it created a separate title for 
addressing domestic violence in Indian country, and so we have 
been following that guidance and have created a new position 
within our office, the Deputy Director for Tribal Affairs, and 
we have also worked to ensure that tribes all over the country 
have access to all of the funding streams which are available 
through the Violence Against Women Act.
    In the past few years, we have distributed $95 million to 
tribes across the country, and this is, as you have pointed 
out, the need for a departmentwide priority. So we are 
committed to ensuring that we can reach out and provide 
resources.
    In the President's budget, there is an increased request 
for assistance to tribal communities, and that will continue to 
be a priority area for us because the need is so great.
    Senator Franken. I am very glad to hear that.
    Thank you, Madam Chair.
    Senator Klobuchar. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and welcome, 
Judge. Thank you for being here and thank you for your great 
work.
    This has been such an important office for a long time, the 
Domestic Violence Unit, and my Attorney General's office back 
in Rhode Island existed because of VAWA support and funding. 
And I would simply highlight a few of the points that some of 
my colleagues have already made. The prompt and proper 
processing of evidence is critical, and particularly when 
municipal budgets are stressed, trying to make sure that there 
is adequate funding for DNA testing and so forth is very, very 
important, and, frankly, I think a great cost saver in the long 
run from all the delays. But I would encourage you to work on 
that, as Senator Hatch suggested, and I am delighted to see in 
your testimony your emphasis and Attorney General Holder's 
emphasis on the effect of violence on children who are witness 
to it. I think that can actually be a valuable tool in getting 
through to the abusers and in empowering Moms--it usually is--
to make the right decision about getting away from abuse and 
protecting their children.
    In that light, I just want to hear your thoughts for a Mom 
who is in the situation of being subjected to domestic 
violence--the decision to leave home and seek protection is a 
really wrenching one. It is personally very difficult. It is 
painful. And it, unfortunately, is accompanied by enormous 
logistical hassle and challenges. And if people are already 
stressed just from their work life and the bad economy and 
things like that, that early stage where you may have to think 
about putting your kids in different schools and all the 
logistics related to that, you have to find your own new place 
to stay, you have to deal with the old bills so you do not lose 
your credit, at the same time you may have to pay new bills. 
You have to deal with lawyers and protective orders, and it all 
just kind of comes in at once, and it can be overwhelming.
    And so I think there is a really important period where 
women in particular need a great deal of support as they work 
through that, all those logistics when they make the decision 
to seek refuge and shelter. And I would encourage you to be as 
proactive in taking the best models of that around the country 
and deploying them as you could.
    Judge Carbon. Thank you very much. We certainly will do 
that. That is critically important, and we are very committed 
to doing that. Thank you.
    Senator Whitehouse. Thank you very much.
    Chairman Leahy. [Presiding.] I have no further questions, 
and we will keep the record open in case others do.
    Thank you very much, and I would ask--if you want to add 
something here, Judge, feel free.
    Judge Carbon. Let me just thank you all again for your 
time. The issues that you have raised this morning are 
extraordinarily important, and we very much look forward to 
working with you on the next reauthorization. So thank you 
again for your time this morning. It is a pleasure to be here.
    Chairman Leahy. Thank you very much. We will set up for the 
next panel.
    Chairman Leahy. I think we should probably introduce all 
the witnesses at once. The first one will be Auburn Watersong. 
She is an economic justice specialist of the Vermont Network 
Against Domestic and Sexual Violence. She has worked in the 
field for almost 15 years, is very well respected in the State 
of Vermont. She lives in Montpelier, Vermont--not totally 
coincidentally my birthplace. She has worked statewide to 
develop programming to address the long-term economic needs of 
victims of domestic and sexual abuse. She has worked with 
direct service providers to implement a plan for sustained 
safety that creates opportunities for victims to live lives 
free of violence, to economic stability and support. She 
received her bachelor's degree from Earlham College. She is 
currently enrolled at the Episcopal Divinity School in 
Cambridge, Massachusetts.
    Senator Klobuchar, I would turn to you to introduce our 
next witness.
    Senator Klobuchar. Very good. Well, thank you. I am proud 
to have Lolita Ulloa here on the panel. Lolita has been a 
managing attorney for the Victim Services Division of the 
Hennepin County Attorney's Office in the past 9 years. Prior to 
that, she was the director of the Domestic Abuse Service Center 
for 7 years, and she now sort of does both jobs, and I was 
proud to have promoted her onto my management team, and she 
remains on the management team to this day.
    Originally from Ecuador, Ms. Ulloa grew up in Massachusetts 
and received her law degree from the Suffolk University Law 
School, and she has just become a national leader on these 
issues and certainly taught me everything I know about this 
topic. So I am really honored to have her here, and she cares 
so much about the victims of domestic violence and really 
passes that on to the entire office and has made a difference 
not just in our office but through the county and through the 
State. So thank you for that, and thank you for being here.
    I think she is also maybe a hockey Mom. Is that right?
    Ms. Ulloa. There are other hockey Moms.
    Chairman Leahy. Do they play hockey in Minnesota?
    Ms. Ulloa. We do play.
    Senator Klobuchar. They play a little hockey. We do have 
the world's second largest hockey puck in Minnesota.
    [Laughter.]
    Senator Klobuchar. The first largest is in Canada.
    Chairman Leahy. There are so many things going through my 
mind that I am just going to--so far as these are televised, I 
will leave well----
    Senator Klobuchar. I do not know if Senator Franken maybe 
wanted to say a few words, too.
    Chairman Leahy. Senator Franken. Another Minnesotan.
    Senator Franken. Well, welcome. And I know that Senator 
Klobuchar, as the attorney for Hennepin County, worked so 
closely with you and has nothing but the highest praise. And 
we, of course, have met on a number of occasions, and I admire 
your work. Thank you for being here today.
    Chairman Leahy. Thank you very much.
    The other witness will be Dr. Richard Gelles. He is the 
dean of the School of Social Policy & Practice at the 
University of Pennsylvania. He is also the current director for 
the Center for Research on Youth and Social Policy and co-
director of the Field Center for Children's Policy Practice, 
and Research, widely published on the issue of domestic 
violence. I recall him working with the Congressional leaders 
in 1997 on the adoption of the Safe Families Act. He received 
his undergraduate degree from Bates College and his master's 
from the University of Rochester and his doctorate from my 
neighboring State, the University of New Hampshire.
    So we will begin with Ms. Watersong. Please go ahead.

STATEMENT OF AUBURN L. WATERSONG, ECONOMIC JUSTICE SPECIALIST, 
     VERMONT NETWORK AGAINST DOMESTIC AND SEXUAL VIOLENCE, 
                      MONTPELIER, VERMONT

    Ms. Watersong. Thank you, Senator Leahy.
    Chairman Leahy and distinguished members of the Committee, 
thank you for the opportunity to discuss the tremendous 
importance of the Violence Against Women Act in these 
challenging economic times.
    The Vermont Network is a statewide coalition of 15 domestic 
and sexual violence programs providing life-saving services to 
victims and their families. VAWA-funded programs are an 
essential part of our work in Vermont. These programs are all 
the more critical in light of the current economic crisis. I am 
here today to discuss the importance of expanding economic 
supports in the upcoming VAWA reauthorization.
    The survivor stories that I will share with you are true 
stories of victims whose names have been changed out of respect 
for their privacy and safety.
    Domestic and sexual violence can have a tremendous economic 
impact on victims, regardless of the state of the global 
economy. In the current economic crisis, however, the impact is 
even more dramatic. Although an economic downturn itself does 
not cause sexual or domestic violence, it can exacerbate the 
factors that contribute to violence, and it can reduce victims' 
ability to achieve safety and healing.
    Almost 50 percent of sexual assault survivors either lose 
their jobs or are forced to quit in the aftermath of the crime. 
When sexual or domestic violence occurs within a context of 
economic insecurity, getting help and moving forward with life 
often competes with very real basic life needs, such as putting 
gas in the car, paying bills, or keeping a roof overhead.
    Homelessness in Vermont has increased by 25 percent in the 
past 2 years. The lack of safe, affordable housing across 
Vermont and the Nation exacerbates the challenges faced by so 
many victims seeking safety. Ninety-two percent of homeless 
mothers reported physical or sexual abuse during their 
lifetimes. No victim should ever be left to choose between 
violence and homelessness. This is no choice at all.
    We are seeing an unconscionable gap between the desperate 
need of victims and the resources available to the direct 
service programs that support them. Not only do individual 
victims and families suffer, but the economy suffers through 
higher health care costs, higher costs to the criminal justice 
system, and more strain on underresourced social service 
systems.
    Abusers intentionally use tactics to limit and control 
victims' access to finances, transportation, housing, and 
banking. Victims report abusers interfering with their 
employment and running up debt to ruin their credit.
    Victims in Vermont and across the Nation face enormous 
economic hurdles. Given the rural nature of our State, lack of 
transportation and geographic isolation also present huge 
obstacles for many survivors, especially for those who may live 
hours away from life-saving services or law enforcement.
    Over the past 16 years, VAWA programs have done much to 
alleviate the immediate pressures that victims face. Since 
then, we have learned that despite our successes in triage and 
intervention, long-term sustainable safety depends largely upon 
economic self-sufficiency.
    With the assistance of private funding from the Allstate 
Foundation in collaboration with the National Network to End 
Domestic Violence, the Vermont Network has developed innovative 
collaborations in an effort to support victims and survivors in 
rebuilding their lives. This past year, we forged a creative 
partnership with a community credit union, a State agency, and 
a local community action program in order to develop a matched 
savings program for domestic violence survivors. This program 
promotes habitual money management skills development. It 
provides financial literacy training, credit counseling, and 
ultimately a 3:1 financial match for participants to use toward 
expenses such as medical debt, utility bills, car maintenance 
and repair, and rent.
    This matched savings program has proved incredibly 
promising. It has allowed the coalition to train our member 
programs who work with survivors on basic financial literacy 
skills, credit repair and reports, and pre-employment supports. 
According to our most recent mid-year report, of the 490 
victims served by this grant, at least 76 percent have 
increased their long-term economic security. VAWA 
reauthorization should include this type of programming to help 
ensure that victims move toward economic self-sufficiency.
    Maria was unemployed when she sought safety at a shelter in 
Vermont. Despite her master's degree, Maria required the skills 
and empowering support of the economic advocates and the 
knowledge of community financial educators to assist her in 
reaching her economic goals. With help, Maria has developed a 
detailed business plan and established a base of references and 
formed promising business contacts.
    Jane arrived at a Vermont shelter with her five children. 
Having just been beaten by her partner, Jane's immediate need 
was safe shelter, yet the domestic violence shelter was full. 
With the assistance of an economic advocate, Jane and her 
children were able to find immediate safety in a motel, but 
were unable to find affordable housing. Jane returned to her 
abusive partner, but maintained her connection with advocates 
who helped her with housing applications, credit repair, and 
budgeting skills. Through those efforts, I am happy to report 
that this past weekend Jane and her five children moved into a 
safe and affordable apartment, and she is working with 
advocates to improve her credit score and gain her financial 
independence.
    These successes are possible through the support of VAWA 
funding and important financial commitments of partners like 
the Allstate Foundation and NNEDV. Through these creative 
collaborations, Vermont has been able to build critical 
programs and partnerships to help survivors on the road to 
economic empowerment.
    This model could be replicated nationwide given adequate 
resources. With this VAWA reauthorization, we have the unique 
opportunity to further broaden the scope of VAWA programs and 
protections by providing greater economic supports to victims 
and survivors. Congress right now has a unique opportunity to 
help victims become lifelong survivors by reauthorizing VAWA 
with strategic improvements which focus specifically on 
economic resources.
    In order to eradicate domestic and sexual violence and 
stalking, victims need a full range of economic supports behind 
them. Their safety requires long-term advocacy, accessible 
financial resources, workplace protection, unemployment 
compensation, supportive education, microenterprise 
opportunities, alternative savings programs, credit counseling, 
and knowledgeable community partners. Every victim deserves a 
chance at sustainable lifelong safety. This is their chance.
    Thank you.
    [The prepared statement of Ms. Watersong appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Ms. Ulloa, how badly did I mispronounce your name?
    Ms. Ulloa. Senator Leahy, it was actually quite good 
compared to some of the other pronunciations I have had.
    [Laughter.]
    Chairman Leahy. I have so much respect for Senator 
Klobuchar and Senator Franken, and I love going to Minnesota, 
and I do not want to get the names of any of their constituents 
wrong, or they will not allow me to come out there.
    Ms. Ulloa. We will still let you come out.
    Chairman Leahy. Thank you. Please go ahead.

 STATEMENT OF LOLITA ULLOA, MANAGING ATTORNEY, VICTIM SERVICES 
   DIVISION, HENNEPIN COUNTY ATTORNEY'S OFFICE, MINNEAPOLIS, 
                           MINNESOTA

    Ms. Ulloa. My name is Lolita Ulloa, and as the managing 
attorney for the Victim Services Division of the county 
attorney'S office, I supervise victim witness services. I also 
oversee the Domestic Abuse Service Center that was mentioned by 
Senator Klobuchar. This is a one-stop center for victims of 
domestic violence.
    Although our county makes up approximately one-quarter of 
Minnesota's population, this office helps victims obtain 50 
percent of all of the restraining orders in our State.
    I want to thank the members of the Judiciary Committee for 
inviting me here. I especially want to thank Senator Amy 
Klobuchar for her continued unwavering support, her work, and 
her focus on these issues both as a Hennepin County Attorney 
and now as a Senator.
    As County Attorney, Senator Klobuchar always supported 
victims of domestic violence in her management of DASC, and she 
strengthened the work of the county attorney's office in the 
prosecution of domestic violence cases. She clearly understands 
the unique and tragic issues that face victims of domestic 
abuse.
    DASC was created in 1994 under the current County Attorney 
Mike Freeman. His vision led to a one-stop service center for 
victims of domestic violence that has now been replicated 
nationally--through the Family Justice Centers--as well as 
internationally. DASC allows victims to access criminal 
processes, Orders for Protection, advocacy services, plus 
economic assistance, child protection, and probation staff, 
along with other services.
    DASC's goals were very simple: easy access to services, in 
a safe, inviting environment, and holding abusers accountable. 
Collaboration is key to this success.
    This collaboration is even more important in times of 
economic crisis. We know that one of the main reasons women do 
not leave abusive situations is because they are financially 
dependent on their abuser. This reality is exacerbated during 
an economic downturn. Suddenly, women who need to leave abusive 
homes may face additional struggles because they have lost 
their jobs, had to sell their cars, or only have health care 
through their abuser.
    I have been a public service lawyer for 25 years. I have 
been involved with domestic violence issues for the majority of 
my legal profession. I know how the climate has changed since 
VAWA was enacted. There was finally Federal recognition that 
crimes of domestic violence and sexual assault and stalking 
against women would not be tolerated any longer.
    There was a shift in how violence against women is 
addressed in criminal justice offices and in the community, and 
for that I am thankful.
    Funding criminal justice offices remains, I believe, a 
critical need, especially when criminal justice offices forge 
partnerships with community agencies and social service 
programs. One way that VAWA has impacted the issue of domestic 
abuse is by offering trainings where States can discuss the 
varied approaches they use in their prosecution, probation, law 
enforcement, and advocacy work. Sharing best practices and 
protocols have resulted in these trainings being models that we 
have all used in our work.
    One particular area is how we treat women who have been 
strangled. Trainings have been the most valuable in emphasizing 
culturally competent services to victims from diverse 
communities. Understanding community-specific hardships, 
language barriers, religious values, and cultural assimilation 
plays an important role in effective intervention. This was a 
huge step that clearly demonstrates that the creators of VAWA 
understood the many dynamics of domestic violence.
    VAWA has done so many good things. I want to take this 
opportunity to focus on the work that is left to be done. I 
recently spoke with Liz Richards, who is the director of 
programming for our Minnesota Coalition for Battered Women, and 
we discussed the following issues that impact victims who are 
trying to leave, particularly during economic downturns.
    In many States--and even in Minnesota, which has been a 
leader on domestic violence issues always--child support is not 
always addressed in an Order for Protection hearing, and they 
are not consistent. The absence of financial support while the 
victim is trying to leave her abuser and make plans to care for 
herself, as you all have mentioned, and her children, is 
dangerous. Funding should be made available to district courts 
to work with community agencies in order to provide training 
and education for lawyers and advocates about the importance of 
addressing child support issues at the same time that Orders 
for Protection are issued. We must ensure, at least on an 
emergency basis, that victims have financial stability. This is 
critical.
    Recently, a woman came to DASC to obtain an Order for 
Protection because the father of her children had pushed, 
grabbed, and kicked her. She had a job and was also starting 
school, and her abuser had been providing child care. There was 
not a shelter opening. The next day the victims indicated that 
she wanted to drop the Order for Protection because she did not 
have any money to pay for child care. The victim had to work to 
stay in school. The abuser had a long criminal record and was 
not working. He already had a child support order. Financial 
independence, simply put, can make the difference in whether a 
woman stays or leaves.
    Another way that financial dependence can manifest itself 
in domestic violence cases relates to medical care. We have 
identified some long term issues such as medical complication 
that can follow the victim for the rest of their life. 
Collaboration is necessary between emergency medical 
professionals and also those that provide follow-up services. 
Ensuring that victims have access to long-term medical care and 
that different medical providers talk to each other is 
critical.
    Recently, the Minnesota Coalition hosted a ``Camp Sheila'' 
for battered women--named for Sheila Wellstone. Battered women 
were asked how long their divorces had been going on. Most 
cases were still in progress, even after 7 to 14 years. 
Usually, there was abuse of the Mom and the kids. The abuser 
used the court system repeatedly to manipulate and threaten the 
victim. The threat of losing the custody of their children was 
ever present. Imagine being forced to co-parent with someone 
who had beaten and terrorized you. Many of these women have no 
money for legal representation. This is another focus area.
    The huge impact of VAWA will never be fully captured 
because the success is marked by individual victims who have 
found a way out, and those voices may never be heard. The cycle 
has been broken. They are safe and that is the most important 
part of their lives. It is what we all hope and work toward 
every day.
    Thank you for the invitation.
    [The prepared statement of Ms. Ulloa appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Dr. Gelles.

 STATEMENT OF RICHARD J. GELLES, PH.D., DEAN, SCHOOL OF SOCIAL 
 POLICY & PRACTICE, UNIVERSITY OF PENNSYLVANIA, PHILADELPHIA, 
                          PENNSYLVANIA

    Mr. Gelles. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and members of the Committee. I appreciate the 
opportunity to testify before you this morning on this 
important and yet complex question of the impact of the current 
economic downturn on violence against women.
    I would add two things to your introduction: one, the 
caution that researchers are by our very nature contrarian; and 
then the second addition I do not have to add now, and that was 
I spent 25 years at the University of Rhode Island.
    A year ago, there was a spike in familicides, primarily 
males who killed their female partners and their children. This 
happened in the midst of the economic downturn, and our 
research team decided to see whether this was a ``canary in the 
mine shaft'' event that foreshadowed increases in child 
maltreatment and domestic violence.
    The answer to that question, as I say in my testimony, is 
elusive primarily because Federal data on child maltreatment, 
homicide, and violence toward women lag by 1 to 2 years. So the 
most recent data we have now for child maltreatment and 
violence toward women only cover up to the very beginning of 
this economic downturn.
    Prior to the economic downturn, the rate of intimate 
partner violence had dropped 50 percent between 1993 and 2005, 
almost completely uninterrupted by any economic downturns in 
1990-91 and 2000-01. There has been a more shallow decrease in 
homicide of women at the hands of intimate partners. It is 
important to point out that in the same trend data, a small but 
significant number of male victims have remained flat, so there 
has been no impact either of the economy or Government 
programming or community efforts on a small but significant 
number of male victims.
    The impact of the Violence Against Women Act is likely to 
have played a role in that 50-percent downturn, and many of the 
statements made by the witnesses this morning speak to the 
importance of providing community services and the importance 
of changing the cultural attitude regarding violence toward 
women.
    I did not put it in my testimony, but the first time I 
testified before Congress on violence toward women was 1978, 
and when we got in the elevator, someone who was affiliated 
with a Congressperson but not a Congressperson said--assuming I 
was not in the elevator--``If you cannot beat your wife, who 
can you beat? '' One does not hear such a thing in public or in 
private anymore.
    Chairman Leahy. I tell you, if I ever heard that from 
somebody on my staff, they would be fired on the spot.
    Mr. Gelles. No one said anything, and the elevator was 
full. Things have changed enormously, and I suspect that that 
cultural attitude plays an enormous role in support for the 
Violence Against Women Act and the decrease.
    However, the Violence Against Women Act is unique as a 
piece of Federal legislation in that it is rather narrowly 
constructed, located primarily in the Justice Department, with 
a goal of protecting women through a relatively narrow 
continuum of care. So if it is time to revisit the Violence 
Against Women Act, I would argue strongly from the point of 
view of the research community that the Violence Against Women 
Act should profit from 16 years of research that have gone on 
since the Act was first enacted and to develop a broader, more 
evidence-driven bill and funding that could be even more 
effective than the funding that has been in the initial 
iterations of the bill for the last 16 years.
    Thank you for the opportunity to speak before you this 
morning.
    [The prepared statement of Mr. Gelles appears as a 
submission for the record.]
    Chairman Leahy. Thank you, and I think there have been a 
lot of changes in attitude since the time of that. But I think 
we can all agree we still have a long way to go.
    I am going to yield to Senator Klobuchar, who has to go to 
a press conference, and then I will yield to Senator Franken, 
who has been here patiently all through this, and then I will 
wrap up. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman, and I 
thank all of you.
    I just wanted to clarify one thing, and first of all, thank 
you, Dr. Gelles, for pointing out this cultural shift. But one 
thing--either of you can answer on the front line, Ms. 
Watersong or Ms. Ulloa, and that is, in his testimony Dr. 
Gelles discussed the fact that a broader assessment of VAWA is 
that not only did VAWA ignore services and resources for male 
victims of intimate partner violence, but the law is unique in 
terms of Federal legislation aimed at the problem of violence 
and abuse in families. So just to point out, do you also serve 
male victims of domestic violence or do you turn them away?
    Ms. Watersong. Thank you, Senator. In Vermont, we do serve 
male victims as well, and in last year alone, we provided more 
than 300 men with supportive program services, and we safe-
housed or sheltered 16 men in Vermont. So, yes, we do serve----
    Senator Klobuchar. Has that been changing over the years? 
Do you think there has been more male victims?
    Ms. Watersong. I cannot say that I have the statistics on 
that, but I know that I have been working in this for 15 years, 
and since the very beginning we have always accepted male 
victim calls and always worked with them, just as we have with 
women.
    Senator Klobuchar. OK. Ms. Ulloa.
    Ms. Ulloa. Thank you, Senator Klobuchar. In our office and 
in our State, I think we do a very good job and are very 
proactive in making sure that victimization of anyone is 
addressed. And in particular, when there is a male that calls 
our office, we provide the same type of services and full range 
of services, including advocacy services for those individuals.
    I think VAWA has done a great deal of work in ensuring that 
the programs that are recipients of their money make sure that 
all of the services that are provided to women and to the 
children are also provided to male victims.
    Senator Klobuchar. Thank you. You mentioned in your 
testimony, Ms. Ulloa, that as we look at this economic issue--
and, again, I think I liked what Ms. Watersong said about how 
it is not necessarily that an economic downturn creates more 
domestic violence, but we do not really have those facts right 
now, but what we have, as Dr. Gelles pointed out, we do know it 
is harder for them to get back on their feet because there may 
not be a job or there may not be the resources out there.
    You talked specifically about child support orders. How do 
you think we could do a better job to ensure that women get 
their child support as soon as possible and integrate that into 
how we focus on domestic violence?
    Ms. Ulloa. Thank you, Senator Klobuchar. I think one of the 
things that would be critical is supporting the work that VAWA 
has done previously in trainings in different areas, either the 
medical or the prosecution. Now I think there is an area where 
we need some improvement and some enhanced services, and that 
is, training in the child support area, whether it is the 
district court staff, the judges, which we have done a lot of 
training around with the judges, but also advocacy service to 
ensure that the protocols and procedures that are in place now 
are being viewed when you have a domestic violence victim, and 
that is different, and ensuring that that is a priority when we 
are setting child support orders, because that financial 
stability for that woman can allow her to make different 
choices and different choices for her children.
    Senator Klobuchar. One other thing that you raised--and I 
cared a lot about this when I was in the office of the county 
attorney--was working on police training. And I know one of the 
things we learned is that sometimes the police did not know 
what the lawyers want and the lawyers were not clear with the 
police, and it created a lot of issues and we tried to work 
those out by going around to every police department, not just 
with domestic violence but finding out exactly what the issues 
were. And I think we saw some improvement, and you raised this 
issue about police report writing, and you have testified that 
you have seen the quality of these reports improve recently.
    What are some of the problems? How could we address this 
with training as we look at the reauthorization of VAWA?
    Ms. Ulloa. Senator Klobuchar, thank you. I think that we 
are at a place, at least in Minnesota, where we have some very 
good and devoted law enforcement partners, and one of the 
things that we have done with the prosecutor's office and 
advocacy groups in general is providing some--and strengthen 
and support our law enforcement partners in ensuring that when 
they are looking at arriving at the scene of a domestic 
violence crime, that their documenting that they are--and I 
mentioned this in my testimony--that they ensure that the 
parties are separated, that we look at the medical needs, that 
the children as witnesses are also a focus of their 
investigation. And I think part of what happens is that we have 
built on what preliminarily started as good police report 
writing, and now we have another layer, and that is, ensuring 
that we have all the witness testimony, we get all the good 
investigation, we have the capturing of evidence which is 
critical for the prosecution of the cases.
    In addition to that, it is the response of the police 
officers themselves to the victims at the scene which has 
changed, and many times for women who are in these situations 
for a male officer or a female officer, a person of authority 
to tell them that they do not deserve to be beaten or treated 
this way can go--is beyond what they expect. And they have 
mentioned that when the response is that way, and I think that 
is the part that has changed with all the VAWA funding and the 
training.
    Senator Klobuchar. Thank you very much.
    Chairman Leahy. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Thank you to all 
the witnesses.
    One of the things that I am interested in is prevention and 
sort of the cycle of violence. It kind of brings me to divorce 
proceedings. And any of you can speak to this.
    One of the ways that men maintain power over women is 
repeatedly challenges the terms of divorce, fighting for 
custody, this sort of thing. And I am wondering what the 
prolonging of all that--I heard Judge Carbon talk about cases 
that have gone on for 12 years or something--what effect that 
has on the kids.
    Ms. Ulloa. Thank you, Senator Franken. Well, our experience 
has been that what the Mom is going through is reflected many 
times in what the children are going through. When legal 
representation in order to advocate for--really the safety of 
the Mom is the safety of the children in legal proceedings. And 
when there is a failure of legal representation--and the abuser 
many times has legal representation--I think the balance of 
power in the courtroom is completely changed. And I think one 
of the things that women typically tell us is that they will 
concede in many areas in the divorce as long as the custody of 
the children and the parenting time is addressed so that the 
children are safe.
    So you have unequal bargaining at divorces because you do 
not have legal representation, and such an emotional issue--and 
not only emotional, but there is a fear. We have many women who 
do not want to go to a court proceeding because of the fear of 
seeing their abuser, even though there are sheriff's deputies 
there and the courtroom is secure. Just the fear alone will 
stop them. If they had a legal advocate, had legal 
representation to do much of this work without appearing in the 
courtroom, this would facilitate their ability to move forward 
with the divorce.
    Senator Franken. So that is one place where you could use 
resources, probably.
    Ms. Ulloa. Absolutely.
    Senator Franken. What is the research on this? What 
percentage of abusers were abused themselves as kids or 
witnessed abuse of their Mom when they were kids?
    Mr. Gelles. I can answer that, but it has to be answered 
two ways. The answer to that is 100 percent. But that does not 
tell you as much as what percentage of abused children or what 
percent of children who witnessed abuse grow up to be abusers. 
And the answer to that question is about 30 percent. That does 
not seem like a lot, except that the overall rate of abuse in 
our country which most people cite is about 3 percent, or 1 in 
22. So you have a difference between 3 percent and 30 percent, 
which is an enormously big difference.
    The driving force behind it is partially the abuse, 
partially the economy. Individuals grow up and who have their 
needs met really do not carry on that cycle of abuse. And then 
the third component, which actually speaks to your question 
about divorce, is the individuals who do not repeat the pattern 
of violence tend to have stable, long-term relationships with a 
parent or relative or a counselor. So that you need someone in 
your life who is there for you in an unrestricted, non-
qualified relationship.
    Going back to your question about divorce, a divorce that 
goes on for 12 years, no matter how much violence is in it, 
robs the children of that stable caregiving, and there is 
absolutely--divorce proceedings where there are allegations of 
abuse and counter-allegations, one of the problems besides 
resources is that is the epicenter of junk science. People are 
allowed to provide expert testimony about whether someone is 
abused or someone is not abused or the fictitious parental 
alienation syndrome. Much of that should be barred from any 
courtroom and judges should be making decisions based on what 
is truly in the best interests of this child so this child does 
not grow up and be part of the 30 percent and is directed to 
the 70 percent.
    Senator Franken. Thank you. I want to get one last question 
in. I know I am running out of time. Are there prevention 
models--I know there is a thing in Minnesota, Code of Healthy 
Families, where basically pediatricians and obstetrician/
gynecologists and social workers identify parents that are at 
risk while the mother is pregnant and start a voluntary system 
of, first of all, prenatal care, but then also once the child 
is born, house visits and those kind of things. And what I have 
heard is that those programs pay for themselves basically in 
the reduced amount of child abuse.
    Do we have good models of prevention of abuse in the 
family?
    Mr. Gelles. You are speaking about David Olds' Nurse-Family 
Partnership model, which Congress funded in the stimulus bill 
and was viewed by the Office of Management and Budget as a 
cost-neutral program because it saves as much on the back end 
as it costs on the front end.
    Unfortunately--and that is a secondary prevention model. It 
identifies high-risk individuals and intervenes with them. It 
is not a broad-based primary prevention model.
    In David's research, the unfortunate part of the research 
was that when there is domestic violence in the home, it 
mitigates the effect on the children. So we do not yet have--
and I would personally say it is one of the shortcomings of 
VAWA. VAWA did not in its implementation implement a research 
and demonstration project----
    Senator Franken. I think I am actually talking about a 
different program, one that was adopted in Minnesota.
    Mr. Gelles. It is called Healthy Families.
    Senator Franken. Well, this is by Dakota County.
    Mr. Gelles. It is a version of David's model, although you 
use--he uses nurse practitioners and Minnesota uses a wider 
range of professionals and paraprofessionals. But it is 
essentially the same model that has been tested since 1976. 
There is no such secondary prevention model tested, evaluated, 
and effective for domestic violence.
    Ms. Ulloa. Senator Franken, I think that any venue where 
you are bringing inventory services, whether it is medical or 
criminal justice or advocacy groups, is critical to a woman. In 
Minnesota, what we do really well is--for instance, I will give 
you an example. The Hennepin County Medical Center, which is a 
high-trauma area right in downtown Minneapolis, has an advocate 
and has social workers who are trained in the work of domestic 
violence. So when somebody comes into the hospital, either in 
the emergency room or other areas, there is somebody that they 
can call, and typically they call and do the crisis work and 
then call our office to provide an advocate. And many areas and 
many hospitals have advocates onsite, and I think in the 
medical area where we see high-trauma coming in right away, 
right after the assault, that is critical.
    The advocacy services are always going to be the spoke of 
the wheel to provide the right services to let the woman leave 
the home. So advocacy services in the medical arena is 
critical.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much, Senator Franken.
    You have all given us so much for thought. I think it is 
easier to say we all want to do the right thing. The idea is 
finding out what is the right thing, what works best.
    Let me, Ms. Watersong, direct you more to the idea of rural 
areas, and every State has rural areas, so it is appropriate. 
But I think of the problems you have in your program and the 
problems that law enforcement has. Can you speak to that, 
especially how do survivors in rural areas like Vermont achieve 
financial independence? What are some of the specialized 
problems they have?
    Ms. Watersong. Thank you, Senator Leahy. When I think about 
the rural challenges for domestic and sexual violence survivors 
in Vermont, I cannot help but think about one particular case, 
a woman that I worked with years ago when I worked as a direct 
services advocate. I will never forget the day that she showed 
up when I was working at a local program, and she had survived 
a horrific all-night physical and sexual assault by her 
partner. The next morning he left her in their home with no 
phone and no car in the back woods of Vermont. Disoriented and 
in shock, bruised and bloodied, she walked barefoot for 8 miles 
on a hot summer road into town to our program seeking respite 
relief and healing. Within 3 weeks, she was in safe and 
affordable housing and managing newly accessed resources. She 
succeeded in leaving that desolate isolation and horrendous 
violence because she was supported by a responsive criminal 
justice system. But she stayed safe because that program was 
able to provide her with the full breadth of economic supports.
    Chairman Leahy. And another question that sort of begs the 
answer, but if the program was not there----
    Ms. Watersong. Right, right. What does she face?
    Chairman Leahy [continuing]. She would not have had----
    Ms. Watersong. Yes, she faces geographic isolation, 
isolation from her community.
    Chairman Leahy. I also find that in very rural areas, very 
small towns, we also have a problem where people do not even 
want to speak about being a victim of abuse.
    Ms. Watersong. Right.
    Chairman Leahy. You somehow feel you have to keep that 
hidden. Or am I wrong?
    Ms. Watersong. That it is private--well, I think VAWA has 
really helped bring that a long way toward just increasing 
domestic violence awareness and even one of the examples that 
Mr. Gelles shared about the elevator, that cultural change that 
is happening is largely due to all of the great things that 
VAWA has done up until now. And I think even in rural 
communities we are seeing that change. We are seeing folks 
realize that being just a silent bystander is not the best 
option anymore. But it is still a challenge because they are so 
far isolated.
    Chairman Leahy. And there are also still some attitudes 
that have to change. You talked in your written testimony about 
a victim who had been hospitalized for several days and then 
had to go off to court for a day to testify and got fired 
because of losing work. Is that correct?
    Ms. Watersong. Right. And we appreciate what VAWA has done 
to this point to support them. I would encourage looking at 
VAWA as far as workplace protections go for victims because 
victims such as the one I discussed in my testimony really need 
unemployment compensation, they need unpaid sick leave, they 
need anti-discrimination laws, all of those things to make sure 
that they can keep their job, they can be assured that they 
will be able to take care of their own needs, the needs of 
their children and families, their court needs, all of that and 
still remain employed.
    Chairman Leahy. And, Ms. Ulloa, I listened to what you 
talked about, what is available in Hennepin County. I have got 
to tell you, I wish that had been available, those things had 
been available when I was State's attorney and we were trying 
to--we actually cobbled things together. I remember my wife and 
I actually paying for a motel for somebody to stay to hide out, 
buying meals for the kids and all. There were just no programs. 
Now they are a lot better, and thank you for mentioning Sheila 
Wellstone, one of the all-time saints in my estimation.
    Tell me, if you had to put your finger on some of the 
biggest differences in handling these kind of cases since VAWA 
passed, what are they?
    Ms. Ulloa. Thank you, Senator Leahy. I think one is the 
response by law enforcement after training. I think also the 
view that judges take on the bench, whether it is in the civil 
arena or the criminal arena on how they view domestic violence, 
that educational component. I think the value of VAWA has been 
greatly supporting the advocacy work, those programs that 
pretty much have nothing and do everything for victims, 
recognizing the expertise, the passion, the need that women 
have to have holistic services in order to get through the 
criminal process and the civil process. VAWA has done all of 
that.
    In particular for me, I think one of the most wonderful 
areas that I am incredibly proud--and we have supported VAWA 
through this--is the response to culturally specific programs--
--
    Chairman Leahy. The response to?
    Ms. Ulloa. Culturally specific programs--Not every victim 
stands the same way, and so much of her isolation really 
depends on where she is from, sometimes her language 
proficiency, her educational proficiency. VAWA has done an 
exemplary job of recognizing, defining, allowing services to go 
specifically to those communities, underserved communities, and 
I think that has been just incredible.
    In my personal experience, from my community, which is one 
of those underserved communities, a Latino community, it has 
saved lives.
    Chairman Leahy. I know in our State we have had refugees 
from other cultures. They come to Vermont, which is kind of an 
entirely different thing. We are a predominantly white, Anglo-
Saxon State, and suddenly you find entirely different cultures 
and everything else. And we have seen outreach into those 
communities, and that I think we are becoming more--at least 
the stories I hear around the country, we are becoming more 
aware of that. It is sometimes easier in a large culturally 
diverse community, but I am glad you raised that point.
    Doctor, I am glad you raised the points you did. This has 
been helpful. Again, I wish I could wave a magic wand and 
violence against women would end and we could just repeal all 
these laws because they would be unnecessary and you could all 
go off and do other things. Unfortunately, that is not a 
reality. That is not going to be a reality anytime soon. So you 
have all been very helpful, and I thank you very, very much.
    Incidentally, I will keep the record open so after you get 
your testimony back, if you say, you know, I should have added 
this or added that point, we will make room for you to do it. 
Again, I apologize for the voice. Thank you.
    Ms. Watersong. Thank you, Senator.
    Ms. Ulloa. Thank you, Senator.
    Mr. Gelles. Thank you.
    Chairman Leahy. We stand in recess.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 66328.001

[GRAPHIC] [TIFF OMITTED] 66328.002

[GRAPHIC] [TIFF OMITTED] 66328.003

[GRAPHIC] [TIFF OMITTED] 66328.004

[GRAPHIC] [TIFF OMITTED] 66328.005

[GRAPHIC] [TIFF OMITTED] 66328.006

[GRAPHIC] [TIFF OMITTED] 66328.007

[GRAPHIC] [TIFF OMITTED] 66328.008

[GRAPHIC] [TIFF OMITTED] 66328.009

[GRAPHIC] [TIFF OMITTED] 66328.010

[GRAPHIC] [TIFF OMITTED] 66328.011

[GRAPHIC] [TIFF OMITTED] 66328.012

[GRAPHIC] [TIFF OMITTED] 66328.013

[GRAPHIC] [TIFF OMITTED] 66328.014

[GRAPHIC] [TIFF OMITTED] 66328.015

[GRAPHIC] [TIFF OMITTED] 66328.016

[GRAPHIC] [TIFF OMITTED] 66328.017

[GRAPHIC] [TIFF OMITTED] 66328.018

[GRAPHIC] [TIFF OMITTED] 66328.019

[GRAPHIC] [TIFF OMITTED] 66328.020

[GRAPHIC] [TIFF OMITTED] 66328.022

[GRAPHIC] [TIFF OMITTED] 66328.023

[GRAPHIC] [TIFF OMITTED] 66328.024

[GRAPHIC] [TIFF OMITTED] 66328.025

[GRAPHIC] [TIFF OMITTED] 66328.026

[GRAPHIC] [TIFF OMITTED] 66328.027

[GRAPHIC] [TIFF OMITTED] 66328.028

[GRAPHIC] [TIFF OMITTED] 66328.029

[GRAPHIC] [TIFF OMITTED] 66328.030

[GRAPHIC] [TIFF OMITTED] 66328.031

[GRAPHIC] [TIFF OMITTED] 66328.032

[GRAPHIC] [TIFF OMITTED] 66328.033

[GRAPHIC] [TIFF OMITTED] 66328.034

[GRAPHIC] [TIFF OMITTED] 66328.035

[GRAPHIC] [TIFF OMITTED] 66328.043

[GRAPHIC] [TIFF OMITTED] 66328.044

[GRAPHIC] [TIFF OMITTED] 66328.045

[GRAPHIC] [TIFF OMITTED] 66328.036

[GRAPHIC] [TIFF OMITTED] 66328.037

[GRAPHIC] [TIFF OMITTED] 66328.038

[GRAPHIC] [TIFF OMITTED] 66328.039

[GRAPHIC] [TIFF OMITTED] 66328.040

[GRAPHIC] [TIFF OMITTED] 66328.041

[GRAPHIC] [TIFF OMITTED] 66328.042

[GRAPHIC] [TIFF OMITTED] 66328.046

[GRAPHIC] [TIFF OMITTED] 66328.047

[GRAPHIC] [TIFF OMITTED] 66328.048

[GRAPHIC] [TIFF OMITTED] 66328.049

[GRAPHIC] [TIFF OMITTED] 66328.050

[GRAPHIC] [TIFF OMITTED] 66328.051

[GRAPHIC] [TIFF OMITTED] 66328.052

[GRAPHIC] [TIFF OMITTED] 66328.053

[GRAPHIC] [TIFF OMITTED] 66328.054

[GRAPHIC] [TIFF OMITTED] 66328.055

[GRAPHIC] [TIFF OMITTED] 66328.056

[GRAPHIC] [TIFF OMITTED] 66328.057

[GRAPHIC] [TIFF OMITTED] 66328.058

[GRAPHIC] [TIFF OMITTED] 66328.059

[GRAPHIC] [TIFF OMITTED] 66328.060

[GRAPHIC] [TIFF OMITTED] 66328.061

[GRAPHIC] [TIFF OMITTED] 66328.062

[GRAPHIC] [TIFF OMITTED] 66328.063

[GRAPHIC] [TIFF OMITTED] 66328.064

[GRAPHIC] [TIFF OMITTED] 66328.065

[GRAPHIC] [TIFF OMITTED] 66328.066

[GRAPHIC] [TIFF OMITTED] 66328.067

[GRAPHIC] [TIFF OMITTED] 66328.068

[GRAPHIC] [TIFF OMITTED] 66328.069

[GRAPHIC] [TIFF OMITTED] 66328.070

[GRAPHIC] [TIFF OMITTED] 66328.071

[GRAPHIC] [TIFF OMITTED] 66328.072

[GRAPHIC] [TIFF OMITTED] 66328.073

[GRAPHIC] [TIFF OMITTED] 66328.074

[GRAPHIC] [TIFF OMITTED] 66328.075

[GRAPHIC] [TIFF OMITTED] 66328.076

[GRAPHIC] [TIFF OMITTED] 66328.077

[GRAPHIC] [TIFF OMITTED] 66328.078

[GRAPHIC] [TIFF OMITTED] 66328.079

[GRAPHIC] [TIFF OMITTED] 66328.080

[GRAPHIC] [TIFF OMITTED] 66328.081

[GRAPHIC] [TIFF OMITTED] 66328.082

[GRAPHIC] [TIFF OMITTED] 66328.083

[GRAPHIC] [TIFF OMITTED] 66328.084

[GRAPHIC] [TIFF OMITTED] 66328.085

[GRAPHIC] [TIFF OMITTED] 66328.086

[GRAPHIC] [TIFF OMITTED] 66328.087

[GRAPHIC] [TIFF OMITTED] 66328.088

[GRAPHIC] [TIFF OMITTED] 66328.089

[GRAPHIC] [TIFF OMITTED] 66328.090

[GRAPHIC] [TIFF OMITTED] 66328.091

[GRAPHIC] [TIFF OMITTED] 66328.092

[GRAPHIC] [TIFF OMITTED] 66328.093

[GRAPHIC] [TIFF OMITTED] 66328.094

[GRAPHIC] [TIFF OMITTED] 66328.095

[GRAPHIC] [TIFF OMITTED] 66328.096

[GRAPHIC] [TIFF OMITTED] 66328.097

[GRAPHIC] [TIFF OMITTED] 66328.098

                                 <all>

</pre></body></html>
